Report on Follow-up Audit of Recommendation
Nos. 1 through 10 from the Audit of
USAID/Tanzania’s Participant Training Activities
Audit Report No. 4-621-05-003-P
March 15, 2005




            PRETORIA, SOUTH AFRICA
   Office of Inspector General




March 15, 2005



MEMORANDUM

FOR:           USAID/Tanzania Acting Mission Director, Douglass Sheldon
               USAID/M/FM Deputy Chief Financial Officer, David Ostermeyer
               USAID/EGAT/ED Director, John Grayzel

FROM:          Acting Regional Inspector General/Pretoria, James Gaughran /s/

SUBJECT:       Report on Follow-up Audit of Recommendation Nos. 1 through 10 from
               the Audit of USAID/Tanzania’s Participant Training Activities, Report
               No. 4-621-04-001-P (Report No. 4-621-05-003-P)

This memorandum transmits our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those
comments, in their entirety, as Appendix II in this report.

This report has eight recommendations. In response to the draft report, USAID/Tanzania
concurred with Recommendation Nos. 1 through 4, agreed with the additional $26,806 in
accrued interest and $55,728 in penalty charges, and included corrective action plans and
target completion dates. Therefore, we consider that management decisions have been
reached on all four recommendations. USAID/Office of Financial Management,
(USAID/M/FM) concurred with Recommendation Nos. 5 and 6 and included corrective
action plans and target completion dates. Therefore, we consider that management
decisions have been reached on both recommendations. USAID/Bureau for Economic
Growth, Agriculture and Trade, Office of Education (USAID/EGAT/ED) concurred with
Recommendation No. 7 but did not agree to issue bills for collection for $372,338. We
have revised the recommendation, and a management decision can now be reached when
USAID/EGAT/ED provides a corrective action plan to resolve the issue of recovering
training costs of $372,338 from the three centrally funded non-returned participants using
all available debt collection actions in accordance with ADS 625 and includes a target
completion date. Please advise my office within 30 days of the actions you have planned
or taken to implement Recommendation No. 7. USAID/EGAT/ED concurred with
Recommendation No. 8 and included a corrective action plan and target completion date.
Therefore, we consider that a management decision has been reached.
Please provide the Bureau for Management, Office of Management Planning and
Innovation, (USAID/M/MPI) with evidence of final action in order to close
Recommendation Nos. 1 through 6 and 8.

I appreciate the cooperation and courtesy extended to my staff during the audit.
This page intentionally left blank.
Table of
Contents
           Summary of Results .............................................................................................5

           Background ..........................................................................................................6

           Audit Objective ....................................................................................................7

           Audit Findings......................................................................................................7

                     USAID/Tanzania Needs to Maintain an Accurate TraiNet
                     Database....................................................................................................8

                     USAID/Tanzania Needs to Strengthen Access Controls of Its
                     Training Results and Information Network System ...............................10

                     The Mission Did Not Record and Transfer Accrued Interest and
                     Penalties..................................................................................................13

                     USAID/M/FM Did Not Transfer the Uncollectible Accounts
                     Receivable to Treasury ...........................................................................15

                     USAID/EGAT/ED Needs to Determine Training Costs and
                     Resolve the Issue of Collection from Centrally Funded Non-
                     Returned Participant Trainees ................................................................16

           Evaluation of Management Comments ..............................................................19

           Appendix I: Scope and Methodology................................................................21

           Appendix II: Management Comments ..............................................................23

           Appendix III: Original Audit Recommendations..............................................31




                                                                                                                                     3
(This page intentionally left blank.)




                                        4
Summary of   The Regional Inspector General, Pretoria (RIG/Pretoria) conducted this follow-up
Results      audit to determine whether USAID/Tanzania took corrective actions on
             Recommendation Nos. 1 to 10 of the Office of Inspector General’s Audit Report
              No. 4-621-04-001-P, Audit of USAID/Tanzania’s Participant Training Activities.
              (See Appendix III pp. 25 – 26.) The Mission effectively addressed eight of the
              ten recommendations, but additional action is still required for USAID/Tanzania
              to fully address Recommendation Nos. 1 and 8.

             For Recommendation No. 1, although training was provided to the Mission’s
             Training Results and Information Network (TraiNet) data entry personnel, the
             Mission’s TraiNet database continued to contain inaccuracies. (See page 8.) As a
             result, the Mission’s TraiNet database cannot provide an accurate list of participant
             trainees. (See pages 8 - 10.) Furthermore, the Mission’s TraiNet access controls
             were weak and need to be strengthened. Weak access controls expose the TraiNet
             system to unauthorized access and modification of data. (See pages 10 - 12.)

             To address Recommendation No. 8, the Mission sent out Bills for Collection and
             follow-up letters and transferred the uncollectible accounts receivable to the
             USAID/Office of Financial Management (USAID/M/FM) in accordance with
             Automated Directives System (ADS) policy. However, the Mission did not
             record the accrued interest and penalty charges for those accounts. Therefore, the
             transferred uncollectible accounts receivable amount was understated by the
             accrued interest of $26,806 and penalty charges of $55,728. (See pages 13 -14.) A
             system to log and track uncollectible accounts receivable transferred by operating
             units to USAID/M/FM should be implemented to facilitate the transfer of these
             accounts to Treasury for cross-servicing. (See pages 15-16.)

             Additionally, three centrally funded non-returned participants—funded under
             USAID/Economic Growth Agriculture and Trade, Office of Education
             (USAID/EGAT/ED) sponsoring units—had not been issued bills for collection.
             This audit recommends that USAID/EGAT/ED resolve the issue of recovering
             training costs of $372,338 from the three centrally funded non-returned
             participants using all available debt collection actions in accordance with ADS
             625, develop and implement a system to require all partners, including
             universities implementing and managing centrally funded participant training
             programs to provide accurate and timely information in the participant tracking
             systems to increase compliance with existing USAID policies. (See pages 16-18.)

             This report has eight recommendations. In response to the draft report,
             USAID/Tanzania concurred with Recommendation Nos. 1 through 4, agreed with
             the additional $26,806 in accrued interest and $55,728 in penalty charges, and
             included corrective action plans and target completion dates. Therefore, we
             consider that management decisions have been reached on all four
             recommendations. USAID/M/FM concurred with Recommendation Nos. 5 and 6
             and included corrective action plans and target completion dates. Therefore, we


                                                                                                5
             consider that management decisions have been reached on both recommendations.
             USAID/EGAT/ED concurred with Recommendation No. 7 but will have to
             resolve the issue of recovering training costs of $372,338. A management
             decision can be reached when USAID/EGAT/ED provides a corrective action
             plan for Recommendation No. 7 to resolve the issue of recovering training costs
             from three centrally funded non-returned participants using all available debt
             collection measures in accordance with ADS 625 and includes a target completion
             date. USAID/EGAT/ED concurred with Recommendation No. 8 and included a
             corrective action plan and target completion date. Therefore, we consider that a
             management decision has been reached. (See pages 23 – 30)



Background   USAID’s Automated Directives System (ADS) 253 defines “Participant” as a
             host country resident or national taking part, under USAID sponsorship, in a
             structured learning activity, whether the training is in-country, in a third country
             or in the U.S. All USAID training supports the achievement of the missions’
             Strategic Objectives and Intermediate Results. For U.S.-bound participant
             training, both short-term and long-term training have challenges. For short-term
             training, it is difficult for participants to make a major commitment away from
             work, especially for U.S. and third country programs. Also, J-1 visa1 requirements
             in some cases are prohibitive. For long-term training, the cost is much higher,
             and participants may not return to their home country as planned.

             A worldwide audit of participant training was part of the Office of Inspector
             General’s audit plan for fiscal year 2003. Regional Inspector General/Pretoria
             (RIG/Pretoria) participated in this effort and issued Audit Report No. 4-621-04-001-
             P, Audit of USAID/Tanzania’s Participant Training Activities, on November 5,
             2003. The ten recommendations from the audit report addressed several issues
             regarding the Mission’s participant training activities, namely that (1) inaccuracies
             were found in the Mission’s Training Results and Information Network (TraiNet)
             database; (2) the Mission needed to obtain and retain required documents for all
             participants; (3) the Mission needed to strengthen its system of tracking and
             reporting non-returnees; (4) the Mission needed to collect training costs from non-
             returnees; and (5) the Mission needed to develop Mission-specific guidance.

             Recommendation Nos. 1, 7, 8 and 9 received USAID/Management Planning and
             Innovation (MPI) final action on July 14, 2004. Recommendation Nos. 2, 3, 4, 5, 6,
             and 10 received MPI clearances on September 14, 2004. Subsequently, MPI stated
             they did not require further action from the Mission regarding any of the ten
             recommendations.



             1
               J-1 visa - A non-immigrant visa issued by the Department of State for an individual who has a
             residence in a foreign country which he or she has no intention of abandoning and who is coming
             to the U.S. temporarily as a participant in a program designated by the Department of State.


                                                                                                          6
            To determine whether the Mission’s actions were effective in correcting the
            identified problems stated in Audit Report No. 4-621-04-001-P, a follow-up audit
            was conducted by RIG/Pretoria at USAID/Tanzania on September 13 to 17, 2004.
            To determine the status of the transferred accounts receivables and the training costs
            for three centrally funded non-returned participants, we communicated with the
            following offices:

                •   USAID/Office of Financial Management (M/FM),

                •   USAID/Office of Management, Planning and Innovation (M/MPI), and

                •   USAID/Bureau for Economic Growth, Agriculture and Trade, Office of
                    Education (EGAT/ED).


Audit       This follow-up audit was conducted in accordance with the U.S. Office of
Objective   Management and Budget’s Circular No. A-50 and Office of Inspector General
            (OIG) audit policy, which requires the OIG to follow up on recommendations that
            have been closed. Specifically, the audit was conducted to answer the following
            question:

            •   Were USAID/Tanzania’s actions in response to Recommendations 1 through
                10 of Audit Report No. 4-621-04-001-P effective in correcting the identified
                problems?

            Appendix I contains a discussion of the audit's scope and methodology.


Audit       USAID/Tanzania’s actions effectively addressed eight of the ten recommendations
Findings    from the prior audit. However, additional corrective action is still required to
            carry out Recommendation Nos. 1 and 8.

            Mission Order 11-2 (Mission Policy on Participant Training), issued on August 5,
            2004, specifically addressed the identified problems in Recommendation Nos. 2,
            3, 4, 5, 6 and 10. One case of a potential non-returnee participant was
            successfully tracked, and the participant was repatriated. USAID/Tanzania issued
            a bill for collection for $100,207 to a non-returned participant, who requested a
            waiver of the two-year residency requirement in response to the prior audit’s
            Recommendation No. 7. This bill for collection was subsequently transferred on
            September 10, 2004 to USAID/Office of Financial Management (USAID/M/FM)
            as an uncollectible accounts receivable.

            USAID/Office of Management, Planning and Innovation (M/MPI) accepted
            USAID/Tanzania’s actions to address Recommendation No. 9. In accordance
            with ADS 253, the “sponsoring unit” was responsible for issuing demand letters




                                                                                                7
to participants who do not return to their country of origin after attending USAID-
funded training.

In March 2003, the Mission sent the Assistant Computer Systems Manager (also
known as the Assistant Computer Manager) and Participant Training Specialist
(also known as Mission Training Specialist) to Malawi for a Training Results and
Information Network (TraiNet) II Workshop. The purpose of the TraiNet
Workshop was to help missions understand how to comply with the new J-1 Visa
requirements as prescribed by USAID/Washington, the Bureau of Citizenship
and Immigration Services (BCIS) (previously known as the Immigration and
Naturalization Services [INS]), and the State Department and to present hands-on
training on how to install and enter data into TraiNet.

The Participant Training Specialist and Assistant Computer Systems Manager
conducted training sessions at USAID/Tanzania to impart knowledge from the
training they received at the TraiNet Workshop in Malawi. The TraiNet data
entry personnel, who are also Strategic Objective (SO) secretaries, were trained
from August 4-14, 2003 and one secretary was trained from June 3-4, 2003. Each
received a minimum of four hours of training. The training was conducted on a
one-to-one basis because the Mission did not have enough computers to hold a
classroom-type training session. In the training sessions, the trainees entered
actual data into TraiNet, data which was then transmitted to the Visa Compliance
System (VCS). Yet, despite this training, the Mission’s TraiNet database
continued to contain significant errors and inaccuracies.

USAID/Tanzania Needs to Maintain
An Accurate TraiNet Database

Summary: ADS 253 requires the use of TraiNet to document and track all
USAID participants and their accompanying dependents. ADS 253 further
emphasizes the importance of entering information into TraiNet for all participant
training. The Mission’s TraiNet data for U.S.-bound participant trainees sent to
the Visa Compliance System (VCS) was accurate. However, there were
inaccuracies for third-country and in-country trainees. The inaccuracies were
caused by data entry personnel’s lack of guidance because they followed a
different standard for entering data for in-country and third-country participants
than they did for U.S.-bound participants. These data entry personnel had training
in TraiNet data entry, but the training did not convey the importance of
maintaining data integrity on all information entered into TraiNet. As a result,
information stored in TraiNet was not accurate, and the Mission could not
generate accurate reports for either management and control purposes or
congressional requests.

ADS 253.3.2 states that sponsoring units must record third-country training
participants in the TraiNet database as they do with U.S.-bound participants.
ADS 253.3.3 allows for the entry of in-country participant training information in


                                                                                 8
clusters but must include the subject area of training, start and end date, total
trainees per participant group, with gender breakdown, and total cost of training
for each program. The entry of the information into TraiNet for in-country
training programs of less than three consecutive class days is not required.
However, if sponsoring units want to enter short term training critical to local
development into TraiNet, they are urged to do so. In accordance with ADS
253.3.3, the USAID/Tanzania Participant Training Specialist sent an email on
May 9, 2003, to all TraiNet trained data entry personnel requiring that they enter
all training data into TraiNet—regardless of duration or type of training.
However, a Mission generated TraiNet report listing participant trainees for the
period under audit showed data for the U.S. trainees had some records in which
return status was left blank, making the data incomplete for reporting purposes.
Regarding the data that was to be sent to the VCS system, there were no
inaccuracies for U.S. trainees. On the other hand, the data for the third-country
and in-country participant trainees had a number of inaccuracies, such as the
following:

The Return Status field was filled as “Unknown.”

   1. Organization names or training programs were entered in Last and First
      Name fields.

   2. Third-country training programs that were completed were still defined as
      “planned.”

The reasons for the inaccuracies of the TraiNet data were:

   1. The TraiNet data entry operators (SO secretaries) did not receive training
      that stressed the importance of maintaining the integrity of the TraiNet
      data regardless of whether the participant trainees are U.S.-bound, in-
      country or third-country trainees.

   2. Infrequent use of TraiNet by some data entry operators’ since their
      training.

   3. There was no basic procedures manual available to the data entry
      operators. The Assistant Computer Systems Manager informed the
      auditors that TraiNet has an extensive “Help” menu. However, it was not
      useful as the data entry operators could not recall how to use the system to
      access the Help menu.

   4. TraiNet data was not periodically reviewed for accuracy.

If the Mission’s TraiNet database contains inaccurate data, USAID/Tanzania
cannot generate accurate TraiNet participant trainee reports—such as program
and financial reports by SO—which could be used as a management tool for



                                                                                9
Mission staff. This would also hinder accountability to Congress or other
government agencies requiring information as to how many people were trained,
the sectors involved, and the fields of study pursued, as well as the amount of
money spent by USAID/Tanzania for training.

In addressing the recommendations from the prior audit, USAID/Tanzania took
actions to improve the TraiNet systems database. However, as stated, this follow-
up audit has identified continuing problems, such as inaccurate data, Mission’s
failure to periodically review data for accuracy, incomplete training of data entry
operators, and the lack of a basic user’s manual. Additional action is required for
USAID/Tanzania to remedy these problems. Therefore, we are making the
following recommendation:

       Recommendation No. 1: We recommend that USAID/
       Tanzania (1) provide data entry personnel with additional
       training, paying specific attention to integrity of data, (2)
       provide a basic Training Results and Information Network
       user’s manual to data entry personnel, (3) correct the
       existing Training Results and Information Network data,
       and (4) provide relevant periodic Training Results and
       Information Network data printouts for the Participant
       Training Specialist to review the Training Results and
       Information Network data printouts as a quality control
       measure.


USAID/Tanzania Needs to Strengthen
Access Controls of Its Training Results and
Information Network System

Summary: ADS 545 has set specific requirements for implementing USAID’s
security policy for system access. One of the requirements is that all USAID
networked computer systems must provide controlled access safeguards to protect
the integrity, availability, and confidentiality of USAID information.
USAID/Tanzania has not followed the ADS requirements for controlling access to
its TraiNet system because the Assistant Computer Systems Manager, the person
in charge of the technical aspect of the Mission’s TraiNet system, has not had
recent training in information system security. Not having the appropriate access
control for TraiNet has resulted in exposing it to vulnerabilities.

ADS 545 prohibits the assignment of more than one user-ID to individuals and
has other requirements, such as:

•   allowing system users to gain access to USAID networks or distributed
    systems only after entering their unique user-ID and password;




                                                                                10
•   randomly selecting passwords that are not easily revealed and following other
    specific requirements;

•   deleting default user-IDs and passwords supplied by the vendor once
    installation is complete;

•    immediately deleting user-IDs and passwords whenever the user terminates
    employment with USAID or transfers to another office; and

•   restricting access to information systems to individuals who require access to
    perform their official duties and restricting their level of access to only the
    information needed to complete assigned responsibilities.

Further, the ADS 545 requires that staff who have security responsibilities must
maintain their security training. USAID/Tanzania’s TraiNet system is its official
database training management system. It is designed to contain information about
all participant training funded by USAID/Tanzania. As such, the information
stored in the TraiNet database is vital and access to it should be tightly controlled
and monitored. Yet, USAID/Tanzania has not effectively controlled access to its
TraiNet system. We noted the following cases:

•   The initial vendor-provided user-ID and password for administrator access
    had not been changed. Vendors provide passwords and user-IDs to be used
    during the installation of systems. These passwords and user-IDs are
    generally generic and are to be used by all personnel involved in the
    installation until the installation is completed. The user-ID and password
    provided for the Mission’s TraiNet system were particularly simple.
    However, the Mission did not change them when the TraiNet installation was
    completed.

•   Two employees used the same user-ID and password that allows them to have
    full TraiNet access–an access usually given to computer systems
    administrators. The Assistant Computer Systems Manager, who assists users
    on technical issues, accessed TraiNet using the above-mentioned vendor-
    provided user-ID and password. The Participant Training Specialist has
    delegated the task of sending data to VCS to her assistant—the person who
    enters participant training data on TraiNet for U.S.-bound trainees. This
    person accesses TraiNet, for sending data to the VCS, using the same vendor-
    provided user-ID and password the Assistant Computer Systems Manager
    uses. The administrator’s user ID and password gives the person the ability to
    perform any function TraiNet allows. This is beyond the requirements of the
    person’s duties.

•   User passwords did not follow USAID password requirements and were easily
    revealed. Some passwords contained names and others did not contain



                                                                                  11
    uppercase letters, lowercase letters, numbers, and symbols in a random pattern
    as required by ADS 545.

•   The user-ID and password for an ex-employee was still in the TraiNet system
    and was not promptly deleted when employment was terminated.

•   One employee, a supervisor on the health strategic objective (SO) team, had
    user access to TraiNet although the employee did not use it. The supervisor’s
    access to TraiNet included user privilege to enter and modify data. The
    employee was not trained to use TraiNet because data for participant training
    was entered by the SO secretary and not the supervisor.

The Assistant Computer Systems Manager has not had training in system security
in the last four years. Information technology security training would include
awareness of threats and vulnerabilities to computer systems as well as
knowledge of improved security practices. The Assistant Computer Systems
Manager’s lack of current security training has contributed to the Mission’s
TraiNet system’s access control weaknesses.

Weak access controls of the TraiNet system expose it to vulnerabilities such as
unauthorized access, modification, and disclosure of the participant training
information. These weaknesses have the potential of compromising USAID/
Tanzania’s participant training program.

Access to the Mission’s TraiNet system was not properly controlled. ADS 545
details the required measures for establishing the proper access controls—for all
USAID systems. The Assistant Computer Systems Manager in charge of the
technical aspects of the TraiNet system, if properly trained on access control and
well versed on the requirements of ADS 545, could take measures to initiate the
proper access control. The Mission’s Assistant Computer Systems Manager was
also not aware of whether the TraiNet system has advanced user privilege-setting
capability. Accordingly, we make the following recommendations that will
improve the TraiNet systems access controls.

       Recommendation No. 2: We recommend that USAID/
       Tanzania establish and implement an information system
       security training plan, with timeframes and milestones,
       for the Assistant Computer Systems Manager.

       Recommendation No. 3: We recommend that USAID/
       Tanzania develop and implement a plan to correct the
       five access control weaknesses detailed on pages 11 and 12
       of this audit report.




                                                                               12
The Mission Did Not Record and Transfer
Accrued Interest and Penalties


Summary: ADS 625.3.5 requires the accruing and recording of interest and
penalty charges as outlined in 22 CFR 213. USAID/Tanzania did not record and
include the accrued interest and penalty charges of the delinquent accounts
receivables transferred to USAID/Office of Financial Management (M/FM)
because it misunderstood the requirements included in respective sections of the
ADS. As a result, the total amount of USAID/Tanzania’s uncollectible accounts
receivable balances transferred to USAID/M/FM was understated by $82,534.

ADS 625.3.5 requires accruing and recording of interest and penalty charges as
outlined in 22 CFR 213. The Mission did include the interest and penalty charges
in their follow-up collection letters and followed ADS 625.3.6.7 (c) requiring the
billing office to open an administrative file and other important documentation to
be retained in the files to support USAID’s collection actions. However, this
ADS provision does not specifically mention including the accrued interest and
penalty charges in the total amount to be transferred to USAID/M/FM as
uncollectible accounts receivable.

In response to Recommendation Nos. 7 and 8 of the Audit of USAID/Tanzania’s
Participant Training Activities, USAID/Tanzania re-issued seven bills for
collection totaling $765,363, and later issued an eighth bill for collection for
$100,207. After making several collection attempts, USAID/Tanzania deemed
these debts to be uncollectible and, consequently, transferred the related accounts
receivable balances to USAID/M/FM. According to USAID/Tanzania, balances
for the seven bills for collection were transferred to USAID/M/FM on January 30,
2004, and the eighth bill for collection was transferred on September 10, 2004.
However, USAID/Tanzania’s transfers to USAID/M/FM included only the
principal amount of the receivables, without the accrued interest and penalty
charges.

While the Mission calculated accrued interest and penalty charges, and included
those charges in follow-up collection letters sent to the non-returned participants,
the Mission did not record those charges in USAID’s Financial Data Collection
Tool. Consequently, the accrued interest and penalty charges were not included
in the uncollectible accounts receivable balances transferred to USAID/M/FM.

USAID/Tanzania did not transfer the accrued interest and penalty charges to
USAID/M/FM because they misunderstood the requirements included in
respective sections of ADS 625. For example, since no payments were received,
USAID/Tanzania was under the impression that once uncollectible accounts
receivable were transferred, USAID/M/FM would then compute and record the




                                                                                 13
applicable interest and penalty charges as these amounts would continue to accrue
until the accounts were settled or collected as stated in ADS 625.3.6.1.a.

This misunderstanding resulted from a lack of clarity on the part of the ADS
guidance. Although it could be reasonably inferred from ADS 625 that accrued
interest and penalties should be included in receivables transferred to
USAID/M/FM, the ADS guidance does not explicitly state the requirement to
record and transfer accrued interest and penalties. USAID/Tanzania has not been
the only mission confused by this issue. According to USAID/M/FM personnel
in charge of processing uncollectible receivables transferred to Washington, that
office received inquiries from several missions as to whether accrued interest and
penalty charges needed to be included along with the principal amounts being
transferred.

As a result of this misunderstanding, the total amount of USAID/Tanzania’s
uncollectible accounts receivable balances transferred to USAID/M/FM was
understated by $82,534. Using the U.S. Treasury’s Current Value of Funds Rate
to compute the accrued interest and the penalty charge rate per 22 CFR 213.12,
the amounts transferred to USAID/M/FM should have included accrued interest
of $26,806 and penalty charges of $55,728.

The Mission did not record and transfer the accrued interest and penalties because
the provision in ADS 625 related to transferred accounts from operating units was
misinterpreted due to the lack of clarity. Therefore, the accounts receivable
transferred by USAID/Tanzania and USAID/M/FM’s accounts receivable balance
was understated. To address the cause, as well as the condition, of this finding we
are making the following recommendations:

       Recommendation No. 4: We recommend that USAID/Tanzania
       modify the uncollectible accounts receivable amounts transferred to
       the USAID/Office of Financial Management for non-returned
       participants identified in Audit Report No. 4-621-04-001-P to include
       $26,806 in accrued interest and $55,728 in penalty charges in
       accordance with the requirements contained in 22 CFR 213.12.

       Recommendation No. 5: We recommend that the USAID/Office of
       Financial Management provide missions with guidance specifying that
       accrued interest and penalties be included in the total amount of
       uncollectible accounts receivable balances transferred by operating
       units to the USAID/Office of Financial Management.




                                                                                14
USAID/M/FM Did Not Transfer the
Uncollectible Accounts Receivable to Treasury

Summary: ADS 625.3.7.4 states, “If a settlement or response is not received
within 180 days of the due date established in the initial bill for collection or
demand letter, the billing office must send the debt administrative file to M/FM/A
for forwarding the delinquent receivable to Treasury...” USAID/Tanzania
transferred delinquent accounts receivable of $765,363 on January 30, 2004 and
$100,207 on September 10, 2004 to USAID/M/FM. When transferred, these
accounts were 412 days and 190 days delinquent, respectively. USAID/Office of
Financial Management (M/FM) personnel had not reviewed the Financial Data
Collection Tool for the uncollectible accounts transferred by the Mission.
Therefore, they were not aware of the above-mentioned transfers until the RIG/
Pretoria audit team inquired about the status of the transferred accounts. The
untimely transfer of delinquent debts to Treasury for cross-servicing has resulted
in delaying the implementation of Treasury’s collection procedures as well as in
increasing USAID’s administrative costs.

The provision in ADS 625.3.7.2 for non-Tax Identification Number (TIN) debts
states that at the conclusion of the 180-day period, all debt that is not in the
process of being collected, and is not in litigation, must be transferred to Treasury.

USAID/Tanzania issued bills for collection totaling $765,363 to seven non-
returned participants on November 14, 2002. To address Recommendation Nos. 7
and 8 of the Audit of USAID/Tanzania’s Participant Training Activities, the
Mission re-issued six bills for collection on March 11, 2003 and one bill for
collection on May 15, 2003. The Mission issued a bill for collection for $100,207
to another non-returned participant on February 4, 2004. After making several
collection attempts, these debts were all deemed by the Mission to be
uncollectible. USAID/Tanzania then transferred the related accounts receivable
balances to USAID/M/FM. According to USAID/Tanzania, balances for the first
seven bills for collection were transferred to USAID/M/FM on January 30, 2004.
At that time, those debts were 412 days delinquent. According to USAID/
Tanzania, the eighth bill for collection was transferred to USAID/M/FM on
September 10, 2004, when it was 190 days delinquent.

USAID/M/FM personnel in charge of transferring uncollectible receivables from
USAID operating units were not aware of the above-mentioned transfers from
USAID/Tanzania because they had not reviewed the Financial Data Collection
Tool for the uncollectible accounts transferred by the Mission. They only became
aware of the above-mentioned transfers when the RIG/Pretoria audit team
inquired about the status of the transferred accounts. This indicated the lack of an
adequate logging and tracking system for such transfers. Instead of directly
transferring these delinquent debts to Treasury as required, USAID/M/FM


                                                                                   15
indicated that another collection attempt would be made by sending each of the
non-returned participants a letter requesting payment within 60 days. This
unnecessary action will further delay the transfer of these delinquent debts to
Treasury.

The untimely transfer of delinquent debts to Treasury for cross-servicing has
resulted in delaying the implementation of Treasury’s collection procedures as
well as in increasing administrative costs for USAID. Meanwhile, the accounts
receivable balances continue to accrue interest and penalty charges. Further, the
statute of limitations on debts is three years for the District of Columbia, so any
additional delays could hamper the U.S. Government’s ability to ultimately
collect these delinquent debts.

The Mission should have transferred the uncollectible accounts receivable to
USAID/M/FM once the 180-day collection period had expired. Thereafter,
accounts receivable transferred by the Mission should be transferred by
USAID/M/FM to Treasury for cross-servicing in a timely manner to increase the
probability of collection. To facilitate this process, a system to log and track
uncollectible accounts receivable transferred by operating units to USAID/M/FM
should be implemented. Accordingly, we are making the following
recommendation:

       Recommendation No. 6: We recommend that the USAID/Office of
       Financial Management implement a system to log and track
       uncollectible accounts receivable balances transferred from USAID
       operating units in order to transfer those debts to the U. S. Treasury
       in a timely manner.

USAID/EGAT/ED Needs to Determine Training Costs
and Resolve the Issue of Collection from Centrally Funded
Non-Returned Participant Trainees

Summary: In accordance with ADS 253 the sponsoring unit for centrally funded
participants is under USAID/Economic Growth, Agriculture and Trade, Office of
Education (EGAT/ED). The provision for the sponsoring unit to issue AID Form
253-1, Demand for Training Costs Repayment Letter (“Demand Letter”) for non-
returned participants became effective with the issuance of the revised ADS 253
on June 2004. USAID/EGAT/ED did not have a system to track the training costs
for the centrally funded non-returned participants and could not provide total
costs of training when USAID/Office of Financial Management (M/FM)
requested this information to identify and record these accounts receivable. As a
result, USAID/M/FM’s total accounts receivable balance was understated by an
estimated $372,338.




                                                                                16
In response to Recommendation No. 9 of the Audit of USAID/Tanzania’s
Participant Training Activities, USAID/Tanzania verified that, in accordance with
ADS 253, the “sponsoring unit” was responsible for issuing demand letters to
participants who do not return to their country of origin after attending USAID-
funded training. Further, sponsoring units are to send copies of such letters to the
relevant accounting office to establish an account receivable in accordance with
ADS 625. For centrally funded non-returned participants, the relevant office
providing oversight to sponsoring units would be USAID/EGAT/ED.

In December 2003, USAID/Tanzania, in conjunction with USAID/EGAT/ED,
forwarded the available background information of three centrally funded non-
returned participants to USAID/M/FM. However, the total cost of training had
not been established by the sponsoring units. Thus, as of October 5, 2004,
USAID/M/FM indicated that no bills for collection had been issued for the three
participants.

USAID/EGAT/ED had not issued bills for collection to the three centrally funded
non-returned participants from Tanzania because the process for sponsoring units
to establish training costs only became effective with the issuance of the revised
ADS 253 in June 2004. In addition, USAID/M/FM does not have the files of the
centrally funded non-returned participants to determine the training costs for
preparing the bills for collection.

The sponsoring units did not provide training costs reports for centrally funded
participant trainees to USAID/EGAT/ED. Further, the predecessor tracking
systems failed to trigger timely recovery efforts for the three centrally funded
participants administered by the sponsoring units identified by this audit.
Therefore, USAID/EGAT/ED was not immediately able to provide the total cost
of training when USAID/M/FM requested this information to identify and record
the accounts receivable for centrally funded non-returned participants.

In November 2004, USAID/EGAT/ED determined the training costs for two of
the three non-returned participants,

   •   The participant trainee who attended Michigan State University (MSU)
       from 1984 – 1989 generated $137,500 in training costs per USAID/
       EGAT/ED files. In return for a favorable waiver of the home residency
       requirement, this non-returned participant may be convinced to repay this
       amount.

   •   For the non-returned participant trainee who attended Iowa State
       University (ISU) from 1988 – 1992 USAID/EGAT/ED determined the
       training cost in the amount of $140,000 based on the participant’s files,
       Certificate of Eligibility for Exchange Visitor J-1 Status.




                                                                                 17
USAID/EGAT/ED could not determine the training costs for the non-returned
participant trainee who attended Texas A & M University from 1987 – 1993.
RIG/Pretoria communicated with the university this individual attended but was
not able to obtain estimated training costs. However, we estimated the training
costs to be $94,838 using tuition fees for another university for the period
attended. The estimate does not include travel costs.

As a result, USAID/M/FM’s total accounts receivable balance is understated by
an estimated amount of $372,338. Further, USAID’s ability to recover training
costs owed by the three centrally funded non-returned participants has most likely
diminished over time.

Accounts receivable for the three centrally funded non-returned participants need
to be established and USAID/EGAT/ED needs to resolve the issue of recovering
the training costs by taking all available debt collection measures in accordance
with ADS 625. Once this is resolved, these amounts can then be recorded in
USAID/M/FM’s accounts receivable balances. In addition, USAID/EGAT/ED
needs to monitor the cost of training for centrally funded non-returned
participants who are managed by sponsoring units. To facilitate the issuance of
bills for collection for centrally funded non-returned participants, we are making
the following recommendations:

       Recommendation No. 7: We recommend that USAID/Economic
       Growth, Agriculture and Trade, Office of Education establish a
       system to track training costs for centrally funded participant trainees
       and resolve the issue of recovering training costs of $372,338 from the
       three centrally funded non-returned participants using all available
       debt collection actions in accordance with Automated Directives
       System Chapter 625.

       Recommendation No. 8: We recommend that USAID/Economic
       Growth, Agriculture and Trade, Office of Education develop and
       implement a system to require all partners, including universities
       implementing and managing centrally funded participant training
       programs, to provide accurate and timely information in the
       participant tracking systems to increase compliance with existing
       USAID policies.




                                                                               18
Evaluation of   In response to the draft report, USAID/Tanzania concurred with Recommendation
Management      Nos. 1 through 4, agreed with the additional $26,806 in accrued interest and
                $55,728 in penalty charges, and included corrective action plans and target
Comments
                completion dates. Therefore, we consider that management decisions have been
                reached on all four recommendations. USAID/Office of Financial Management
                (USAID/M/FM) concurred with Recommendation Nos. 5 and 6 and included
                corrective action plans and target completion dates. Therefore, we consider that
                management decisions have been reached on both recommendations.

                USAID/Bureau for Economic Growth, Agriculture and Trade, Office of
                Education, (USAID/EGAT/ED) concurred with Recommendation No. 7 but, based
                on consultations with the Office of General Counsel and the Office of Financial
                Management, did not agree to issue bills for collection for $372,338. We have
                revised the recommendation, and a management decision can now be reached
                when USAID/EGAT/ED provides a corrective action plan that resolves the issue
                of recovering training costs of $372,338 from the three centrally funded non-
                returned participants using all available debt collection actions in accordance with
                ADS 625 and includes a target completion date. USAID/EGAT/ED concurred
                with Recommendation No. 8 and included a corrective action plan and target
                completion date. Therefore, we consider that a management decision has been
                reached.




                                                                                                   19
(This page intentionally left blank.)




                                        20
                                                                                    Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General/Pretoria conducted this follow-up audit in
              accordance with generally accepted government auditing standards. The purpose of
              the audit was to determine whether USAID/Tanzania’s actions taken to close
              Recommendation Nos. 1 through 10 were effective. To make this determination, we
              reviewed the participant training records from November 1, 2003 to August 31,
              2004. We conducted the audit to determine whether the Mission (1) obtained and
              retained required documents for all participants, (2) strengthened its system of
              tracking non-returnees, (3) collected training costs from non-returnees, (4)
              developed mission-specific guidance, and (5) ensured there were no inaccuracies in
              the TraiNet database. In planning and performing this audit, we tested and assessed
              significant management controls, specifically, the Mission’s systems and procedures
              for processing J-1 visas for U.S.-bound participant trainees and for transferring
              delinquent accounts receivable to the USAID/Office of Financial Management
              (M/FM). Additionally we reviewed Mission documents provided to USAID’s
              Office of Management Planning and Innovation (M/MPI) and supporting
              documentation that was the basis for MPI’s determination that USAID/Tanzania’s
              actions in response to the previous audit report’s recommendations were complete.

              In addition, during the course of the audit we observed weaknesses in the TraiNet
              access controls and conducted reviews to determine the extent of the weaknesses.
              We expanded the scope of the audit to address this matter.

              We conducted the fieldwork at USAID/Tanzania in Dar Es Salaam from
              September 13 through 17, 2004. We contacted USAID/M/FM and USAID/
              M/MPI to provide clarification on the status and procedures pertaining to
              transferred accounts receivable.


              Methodology

              In planning and performing the audit, we obtained and reviewed the previous
              audit report, examined USAID/Tanzania’s supporting documents to close the
              recommendations and perused USAID/M/MPI’s clearance memo.

              For criteria, we used relevant Automated Directives System chapters, the Code of
              Federal Regulations, the Complete Guide to USAID’s Visa Compliance, other
              guidance developed by USAID/Washington, and other legal guidance.




                                                                                              21
We interviewed Mission personnel who were delegated the roles of entering,
verifying and approving data in TraiNet and the Mission’s Assistant Computer
Systems Manager. We interviewed USAID/Tanzania’s accounting personnel,
examined the bills for collection and copies of administrative files pertaining to the
delinquent accounts receivable transferred to USAID/M/FM, and browsed the
Financial Data Collection Tool reports to verify these accounts were indeed
transferred to USAID/M/FM.

To determine the status of the transferred accounts receivable, we contacted
USAID/M/FM officials and personnel. We also communicated with USAID/
M/MPI to clarify the provisions contained in ADS 625 on the Mission’s
responsibility for recording and transferring accrued interest and penalties.

To estimate the accounts receivable for three centrally funded non-returned
participants, we contacted the universities they attended and were provided with the
estimated training costs of each of their Ph.D. programs. Since the sponsoring unit
that provided funds to the centrally funded non-returned participants was under
USAID/EGAT, we also contacted USAID/EGAT officials and personnel to
determine the actual training costs and resolve the issue of recovering training costs
of $372,338 from the three centrally funded non-returned participants using all
available debt collection actions in accordance with ADS 625.

We did not set a materiality threshold for this audit as the nature of the audit did
not lend itself to the establishment of such a threshold.




                                                                                   22
                                                                                                          Appendix II


Management
Comments



                          U.S. Agency For International Development
                                                                     memorandum

          DATE:                   February 1, 2005

     REPLY TO
     ATTN OF:                     Douglass Sheldon, Acting Mission Director /s/

       SUBJECT:                   Draft Report on Follow-up Audit of Recommendation Nos. 1 through 10 from
                                  the Audit of USAID/Tanzania’s Participant Training Activities, Report No. 4-
                                  621-04-001-P (Report No. 4-621-05-XXX-P)

                TO:               Jay Rollins, Regional Inspector General/Pretoria

               REF:               RIG’s memorandum dated January 4, 2005

Please find herewith USAID/Tanzania’s comments on recommendation numbers 1 to 4 of draft audit report No. 4-621-
05-XXX-P.

Recommendation No. 1: We recommend that USAID/Tanzania (1) provide data entry personnel with additional
training, paying specific attention to integrity of data, (2) provide a basic Training Results and Information
Network user’s manual to data entry personnel, (3) correct the existing Training Results and Information
Network data, and (4) provide relevant periodic Training Results and Information Network data printouts to
the Participant Training Specialist as a quality control measure.

Comments: We agree with the recommendation. USAID/Tanzania’s timeframe are as follows: (1) Mission has
scheduled a TraiNet training course for all data entry personnel in February 2005. This course will be a structured
activity with a full agenda. (2) Upon completion of the TraiNet training course, all attendees will leave with a copy of
a TraiNet user’s manual. Manual updates will be sent to the data entry personnel as they come. Follow-on TraiNet
training courses will be conducted as needed. (3) Correction of the TraiNet existing data is expected to be completed
by the end of April 2005. (4) TraiNet Administrator will produce monthly printouts for the PTS starting end of May
2005.

Recommendation No. 2: We recommend that USAID/Tanzania establish and implement an information system
security training plan, with timeframes and milestones, for the Assistant Computer Systems Manager.

Comments: We agree with the recommendation. USAID/Tanzania is taking the following actions to establish and
implement an information system security training plan:




                                                                                                                      23
    •   The Assistant Computer Systems Manager (ACSM) is currently undertaking a one-year course in computer
        studies which covers in depth the information systems security topics. The course is expected to end in
        December 2005.
    •   Also, on daily basis the ACSM is getting Information Security Tips as part of an on going security training
        through IRM/Washington which is web-based.

Recommendation No. 3: We recommend that USAID/Tanzania develop and implant a plan to correct the five
access control weaknesses detailed on page 11 of this audit report.

Comments: We agree with the recommendation. USAID/Tanzania will correct the five access control weaknesses
detailed on page 11 of this audit report by April 30, 2005.

Recommendation No. 4: We recommend that USAID/Tanzania modify the uncollectible accounts receivable
amounts transferred to the USAID/Office of Financial Management for non-returned participants identified in
Audit Report No. 4-621-04-001-P to include $26,806 in accrued interest and $55,728 in penalty charges in
accordance with the requirements contained in 22 CFR 213.12.

Comments: We agree with the recommendation. USAID/Tanzania will modify the uncollectible accounts receivable
amounts transferred to the USAID/Office of Financial Management to include interest and penalty charges due as of
the date of transfer. The transfer of additional amounts will be reflected in the PC web tool report for the quarter
ending March 31, 2005.

Please also find additional comments that clarify some issues in the draft audit report.




                                                                                                                      24
                                                                      February 8, 2005

MEMORANDUM

TO:            Regional Inspector General/Pretoria, Jay Rollins

FROM:          Deputy CFO, David Ostermeyer /s/

SUBJECT:       Management Response to Draft Report on Follow-up Audit of Recommendation Nos. 1
               through 10 from the Audit of USAID/Tanzania’s Participant Training Activities, Report
               No. 4-621-04-001-P (Report No. 4-621-05-XXX-P)


Thank you for the opportunity to respond to the draft audit report. The report contains two
recommendations for CFO action intended to improve USAID’s processing and tracking of accounts
receivable. Management concurs with the proposed recommendations and has implemented corrective
action for one of the recommendations. Documentation supporting our corrective action is attached for
your immediate review. We respectfully request that recommendation nos. 5 and 6 receive management
decisions upon the issuance of the audit report and that recommendation no. 5 be closed upon the issuance
of the audit report.

Following are our management decisions and corrective action regarding the proposed audit
recommendations:

Recommendation No. 5: We recommend that the USAID/Office of Financial Management provide
missions with guidance specifying that accrued interest, penalties and applicable administrative costs be
included in the total amount of uncollectible accounts receivable balances transferred by operating units to
the USAID/Office of Financial Management.

Management Decision: On February 8, 2005, a General Notice Policy Reminder was issued on the
Transfer of Uncollectible Accounts Receivable. The reminder clarifies existing policy regarding the
amount to be transferred to the Office of Financial Management (M/FM) in accordance with ADS
625.3.7.4. The clarification contained in the policy reminder will be incorporated into the next revision to
ADS 625.




                                                                                                           25
Recommendation No. 6: We recommend that the USAID/Office of Financial Management implement a
system to log and track uncollectible accounts receivable balances transferred from USAID operating
units in order to transfer those debts to the U.S. Treasury in a timely manner.

Management Decision: M/FM will ensure that the accountant in charge of managing delinquent
accounts receivable will establish a log of delinquent accounts receivable that contains the following
information:

       •   Relevant identifying data,
       •   Date received by M/FM,
       •   Mission or Washington office that referred the debt,
       •   Date transferred to Treasury for collection and cross-servicing, and
       •   Date of and nature of final disposition of the debt.

In addition, M/FM will implement procedures to ensure that the accountant in charge of managing the
delinquent accounts receivable will notify the referring office that M/FM has received the transferred debt.
M/FM will also reconcile, on a quarterly basis, the log against the information that the missions
transferred to M/FM through the Financial Data Collection Tool. This last step will prevent debt referred
by the missions from going unnoticed indefinitely. A final action target date is set for 05/30/05.



Attachment: General Notice: Policy Reminder, ADS 625 Transfer of
             Uncollectable Accounts Receivable

CLEARANCE PAGE FOR MEMORANDUM, Management Response to Draft Report on Follow-up
Audit of Recommendation Nos. 1 through 10 from the Audit of SUAID/Tanzania’s Participant Training
Activities, Report No. 4-621-04-001-P (Report No. 4-621-05-XXX-P)


Clearances:

FM/A/: Jeff Carr     /s/                 Date 02/09/2005

FM/CAR/: Tom Clarkson          /s/       Date 02/09/2005

M/MPI/: Connie Turner ___/s/_______ Date 02/09/2005

Drafter:
M/MPI/: Diane Travis _____/s/______ Date 02/09/2005




                                                                                                           26
  Date: 02/08/2005
Subject: ADS 625 - Transfer of Uncollectable Accounts Receivable.
  Type: Policy-Reminder
Agency Notice Message:

                                                                USAID/General Notice
                                POLICY-REMINDER                 M/MPI
                                                                02/08/2005


Subject: ADS 625 - Transfer of Uncollectable Accounts Receivable.

This policy reminder will be incorporated into the next revision to
ADS 625. The reminder clarifies existing policy regarding the
amount to be transferred to the Bureau for Management, Office of
Financial Management, Accounting Division (M/FM/A) under ADS
625.3.7.4.

Existing ADS policy is:

625.3.7.4 Subsequent Demands for Payment - Non-TIN Debts

If payment is not received by the due date, the billing office must
send three progressively more strongly worded demand letters at 30-
day intervals until the efforts result in payment in full, a
satisfactory installment plan arrangement, or an administrative
determination that the debt is uncollectible through means
available to USAID. If a settlement or response is not received
within 180 days of the due date established in the initial bill for
collection or demand letter, the billing office must send the debt
administrative file to M/FM/A for forwarding the delinquent
receivable to Treasury.

The following provides clarification on the amount to be
transferred in the debt administration file:

The transferred amount must include the principal, plus accrued
interest, penalties, and administrative costs associated with the
delinquent receivable.


Point of Contact: Any questions concerning this Notice may be
directed to Joe Keady, M/MPI, (202) 712-5744.


Notice 0223




                                                                                       27
U.S. AGENCY FOR
INTERNATIONAL
DEVELOPMENT

                                                                 February 14, 2005


MEMORANDUM

TO:          Regional Inspector General/Pretoria, Jay Rollins

FROM:        EGAT/AA, Emmy B. Simmons /s/

SUBJECT: Management Response to Draft Report on Follow-up Audit of Recommendation No’s 7 and
          8 from the Audit of USAID/Tanzania’s Participant Training Activities, Report No. 4-
          621-04-001-P (Report No. 4-621-05-XXX-P)

        Thank you for the opportunity to respond to the draft audit report. The report contains two
recommendations for EGAT action intended to improve USAID’s implementation and management of
centrally funded participant training programs. We respectfully request that recommendations no 7 and
8 be closed upon the issuance of the audit report.

      Following are our management decisions and corrective action regarding the proposed audit
recommendation:

        Recommendation No. 7: We recommend that USAID/Economic Growth, Agriculture and
Trade, Office of Education establish a system to track training costs for centrally funded participant
trainees and issue bills for collection totaling $372,338 for the three centrally-funded non-returned
participants from Tanzania in accordance with Automated Directives System 625.

Management Decision:

        We concur in the recommendation.

        A system for tracking has been established. In 1998, USAID began utilizing its TraiNet system to
capture cost data in a uniform way, worldwide. ADS 253 now requires all USAID partners to enter
participant training cost data into TraiNet for all training events, including those that are centrally funded.
We presume that this satisfies the first part of the recommendation.




                                                                                                                  28
         However, concerning the second part of Recommendation 7, that Bills of Collection be issued for
the three centrally funded non-returned participants from Tanzania in accordance with the ADS 625,
USAID/EGAT/ED has sought advice from General Counsel. The Office of General Counsel has advised
that before a bill of collection may be sent, it must concern a legally supportable case which includes
evidence of due process, namely that the participant had agreed in writing to refund USAID’s training
costs; there is evidence of the exact amount of the costs incurred on behalf of the participant; and those
costs must have been incurred by USAID no more than ten years prior. These cases started in 1989 and
1992 (or shortly thereafter), and thus the cases do not present legally supportable claims which would be
enforceable in a court of law. The Office of the General Counsel, after consultation with the Office of
Financial Management, further advises that the statute of limitations of ten years has run out on these
cases.

        Therefore, USAID/EGAT/ED will not be issuing bills of collection in these three specific cases.
However, it should be noted that systems and procedures are now in place for centrally-funded participant
training programs. These systems and procedures ensure that accurate and timely information exists in a
sufficient manner so as to establish due process and existence of legal claims so that bills of collection
may be issued to future non-returnees. We presume that this addresses the second element of the
recommendation.

        Recommendation No. 8: We recommend that the USAID/Economic Growth, Agriculture and
Trade, Office of Education develop and implement a system to require all partners, including universities
implementing and managing centrally funded participant training programs, to provide accurate and
timely information in the participant tracking systems to increase compliance with existing USAID
policies.

Management Decision

        We concur with the recommendation. EGAT has developed and implemented a new system to
require all partners, including universities implementing and managing centrally funded participant
training programs, to provide accurate and timely information in the participant tracking systems to
increase compliance with existing USAID policies. This system is reflected in the new USAID ADS 252,
to be released on/a February 28, 2005.

        On February 15, 2003, the Departments of State and Homeland Security began implementation of
the Student and Exchange Visitor Information System, know as SEVIS, to facilitate the tracking of
exchange visitors. SEVIS enables USAID and other exchange visitor program sponsors to transmit
electronic information and event notifications via the internet, to the Department of Homeland Security,
U.S. Immigration & Customs Enforcement (ICE), and Department of State (DOS), prior to, during, and
following an exchange visitor’s stay in the United States. SEVIS is an Internet-based system that
maintains current information on non-immigrant students (F and M visa), exchange visitors (J visa), and
their dependents (F-2, M-2, and J-2). The system reflects exchange visitor status changes, such as
admission at port of entry (POE), validation of arrival, change of address, change in program of study, and
other programmatic and financial details. USAID is in full compliance with these requirements, and
SEVIS, when used in conjunction with USAID’s TraiNet system, is USAID’s primary tool for participant
tracking. It is used regardless of whether the participant is Mission or Washington funded.




                                                                                                            29
        On June 15, 2004, an amended version of ADS 253 was released, specifying that Sponsoring
Units or implementers are required to update exchange visitor data in accordance with USAID and
SEVIS requirements, and to track the departure status of their participants. Sponsoring Units or
Implementers must inform the EGAT/ED Responsible Officer in writing immediately in the event that
an exchange visitor does not return, (in addition to recording the non-returnee in TraiNet). In the event
that an exchange visitor does not return, for any reason, the EGAT/ED Responsible Officer is required
to terminate the exchange visitor’s data directly in SEVIS, citing the failure to return as “non-
compliance with exchange visitor program regulations”. Termination of the exchange visitor’s data
effectively reports the individual as “out of status” to the Department of Homeland Security.

        Sponsoring Units or implementers are also required to inform the EGAT/ED Responsible Officer
if a non-returnee is found to have returned to his or her home country at any time after being reported as
a non-returnee.

        The requirements regarding the requirement for accurate and timely data entry as reflected in
ADS 253, apply to USAID Missions and USAID contractors, grantees and cooperative agreement
recipients, regardless of whether or not the exchange visitor event was funded with Mission or
Washington regional funds.


CLEARANCE PAGE FOR MEMORANDUM, Management Response to Draft Report on Follow-up
Audit of Recommendation No. 8 from the Audit of USAID/Tanzania’s Participant Training Activities,
Report No. 4-621-04-001-P (Report No. 4-621-05-XXX-P)

Clearances:

EGAT/ED: John Grayzel   /s/           Date 02/11/2005
EGAT/AA:EBSimmons (email)_________ Date 2/11/2005 @ 4:15 pm
EGAT/PAICO/PAMS: DBrazier ___/s/______Date 2/14/2005

Drafter:EGAT/ED/: EGAT/ED:James Nindel:02/11/2005:2-5317
Tanzania Audit 8 .doc
P:\EGAT.EXEC\EGAT.ED\Tanzania Audit Report.doc




                                                                                                        30
                                                                                     Appendix III


Original Audit
Recommendations

              Audit recommendations from Audit Report No. 4-621-04-001-P, Audit of
              USAID/Tanzania’s Participant Training Activities issued on November 5, 2003,
              listed in their entirety.

              Recommendation No. 1: We recommend that USAID/Tanzania train all current
              and prospective Training Results and Information Network (TraiNet) data entry
              operators.

              Recommendation No. 2: We recommend that USAID/Tanzania implement
              procedures and controls to properly document all future participants in accordance
              with Automated Directives System Chapter 253 requirements.

              Recommendation No. 3: We recommend that USAID/Tanzania conduct
              background checks on all prospective participant training applicants traveling to the
              United States for training programs.

              Recommendation No. 4: We recommend that USAID/Tanzania develop
              procedures for verifying and documenting participants’ return to the country in
              accordance with Automated Directives System Chapter 253.

              Recommendation No. 5: We recommend that USAID/Tanzania implement a
              system to document all actions taken, such as notification to appropriate
              authorities, once a participant is identified as a non-returnee.

              Recommendation No. 6: We recommend that USAID/Tanzania develop and
              implement procedures with USAID/Washington and affected contractors to locate
              and track all current and future non-returnees.

              Recommendation No. 7: We recommend that USAID/Tanzania issue a bill of
              collection in the amount of $100,207 to the non-returnee who requested a waiver
              of the two-year residency requirement.

              Recommendation No. 8:           We recommend that USAID/Tanzania impose
              applicable interest charges on the unpaid balances, totaling $765,363, of the seven
              bills of collection mentioned above and reissue the bills of collection until paid or
              written off in accordance with 22 CFR Part 213.12.

              Recommendation No. 9:         We recommend that USAID/Tanzania request
              clarification from USAID/Washington to determine which USAID office is
              responsible for issuing bills of collection to USAID participants who are in


                                                                                                   31
centrally-funded programs and do not return to their home country. If the Mission
is deemed responsible, it should obtain cost data for all centrally-funded non-
returnees and issue bills of collection to them for applicable training costs.

Recommendation No. 10: We recommend that USAID/Tanzania develop
Mission-specific guidance on participant training to address areas such as
participant    training clauses in agreement documents; real-time tracking,
monitoring and reporting of participants; and the new visa compliance
requirements. The guidance should also address the other weaknesses identified
in this report (including allowable visa and program extensions) to implement
USAID policies and procedures for participant training in the United States.




                                                                              32
